Louisiana
Capital
Assistance
Center

June 25, 2021

A Non-Profit Law Office
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
State of Louisiana v. Tazin Hill, 20-1587
Unopposed request for 28-day extension to file BIO
Dear Mr. Harris,
The State of Louisiana has filed a petition for a writ of certiorari in this matter. On June
14, 2021, the State of Oklahoma, along with nine other states filed an amicus brief in support of
the grant of certiorari.
The brief in opposition is currently due July 9, 2021, a thirty day extension having
previously been granted. As a result of the complexity and density of the issues to be addressed,
and as a result of the press of other work, counsel seeks additional time in which to complete and
file an appropriate brief in opposition to the state’s petition.
Mr. Hill requests an extension of twenty-eight days in which to file his brief in opposition.
The new due date would be August 6, 2021. As such, the extension would not alter the anticipated
conference date for the state’s petition.
On June 25, 2021 I conferenced this request with counsel for the State of Louisiana,
Solicitor General Elizabeth Murrill, who advised that the request for extension of time was not
opposed.
Sincerely,
/s/ Richard Bourke
Richard Bourke
Director

cc.

Elizabeth Murrill, Louisiana DOJ, 1885 N. Third Street, Baton Rouge, LA 70802

LOUISIANA CAPITAL ASSISTANCE CENTER
636 BARONNE STREET • NEW ORLEANS • LOUISIANA • 70113
PHONE: + 1 (504) 558-9867 • FAX: + 1 (504) 558-0378

